December 14, 2010

STEVEN J. FORTE
SENIOR VICE PRESIDENT, OPERATIONS

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Houston, TX Processing and Distribution Center Mail
         Consolidation (Report Number NO-AR-11-004)

This report presents the results of our audit of the Houston, TX Processing and
Distribution Center’s (P&DC) proposed consolidation of mail processing operations into
the North Houston, TX P&DC (Project Number 10XG046NO000). The report responds
to a request from the U.S. Postal Service senior vice president, operations. Our audit
objective was to determine whether a business case exists to support the consolidation.
This audit addresses operational risk. See Appendix A for additional information about
this audit.




                            Illustration 1: Houston P&DC
Houston, TX Processing and                                                                           NO-AR-11-004
 Distribution Center Mail Consolidation


Conclusion

A business case exists to consolidate the Houston P&DC’s mail processing operations
into the North Houston P&DC. This conclusion1 is based on the premise that the North
Houston P&DC is expanded. Based on our analysis:

       Adequate capacity does not exist to process combined mail volumes at the North
        Houston P&DC. However, the proposed North Houston P&DC building
        expansion, along with additional staffing, new equipment, and equipment from
        the Houston P&DC would be more than adequate to process combined mail
        volumes.

       Customer service scores should be maintained or improved.

       No career employee should lose their job, although there may be some
        reassignments.

       Efficiency should improve.

       Significant cost savings should be realized.

As a result of this consolidation and after the expansion completion, the Postal Service
could save approximately $35 million annually or $189,744,682 over 10 years. See
Appendix B for our detailed analysis of this topic and Appendix C for our monetary
impact calculation.

We recommend the senior vice president, operations:

1. Pursue expansion of the North Houston Processing and Distribution Center and
   consolidate the Houston Processing and Distribution Center’s mail processing
   operations into the expanded facility by the end of fiscal year (FY) 2013.

We recommend the vice president, Southwest Area:

2. Postmark outgoing letter mail cancelled at the North Houston Processing and
   Distribution Center with a combined postmark.

3. Update employees on the consolidation process as it moves forward.

4. Monitor service scores during implementation to ensure customer service is not
   negatively impacted.



1
  Our conclusion is based on projected events; however; actual results may differ materially from these projections.
Our assumptions include a successful expansion of the North Houston P&DC by FY 2013 and no significant increase
in mail volume.




                                                         2
Houston, TX Processing and                                                 NO-AR-11-004
 Distribution Center Mail Consolidation


Management’s Comments

Management agreed with the recommendations and will pursue the expansion of the
North Houston P&DC and consolidate the Houston P&DC’s mail processing operation.
The expansion and consolidation is expected to be completed by the end of FY 2013,
pending an economic analysis study and approval of capital funding by the Capital
Investment Committee. Management also agreed to modify the postmark, update
employees on the consolidation, and monitor service during implementation of the
consolidation process. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations. The OIG considers recommendation
1 significant and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. This
recommendation should not be closed in the Postal Service’s follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:     Patrick R. Donahoe
        David E. Williams Jr.
        Frank Neri
        William C. Rucker
        Corporate Audit and Response Management




                                           3
Houston, TX Processing and                                                                        NO-AR-11-004
 Distribution Center Mail Consolidation


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® (FCM) volume over the past decade. This
has resulted in a decline in mail volume of more than 25 billion pieces during 2009,
resulting in a net loss of $3.8 billion. In the first 3 quarters of FY 2010, the volume
decline was approximately 6.6 billion pieces, with a net loss of approximately $5.4
billion.

While the Postal Service reduced expenses by nearly $6 billion in FY 2009 and by
almost $658 million during the first 3 quarters of FY 2010, the reduction in expenses has
not been sufficient to offset fully the decline in mail volume and the rising cost of
compensation and benefits.

In recent testimony before Congress,2 the U.S. Government Accountability Office (GAO)
found that deteriorating financial conditions and declining mail volume have reinforced
the Postal Service’s need to increase operational efficiency and reduce expenses in its
mail processing network. Of the initiatives listed, the GAO states that Area Mail
Processing (AMP) proposals are intended to reduce costs and increase efficiency by
making better use of excess capacity or underused resources, primarily at Postal
Service P&DCs. In conclusion, the GAO assessed the overall status and results of the
Postal Service’s efforts to realign its mail processing network. This assessment found
the agency has implemented 23 AMP proposals to consolidate operations and facilities
and approved six AMP consolidation proposals since 2009, for an annual cost savings
of about $98.5 million. The GAO further concluded that moving forward on these
initiatives is challenging due to complexities involved in consolidating operations.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “…shall provide
prompt, reliable, and efficient services to patrons in all areas….” Further, the September
2005 Postal Service Strategic Transformation Plan states, “The Postal Service will
continue to provide timely, reliable delivery to every address at reasonable rates.” The
Postal and Accountability Enhancement Act, P.L. 109-435, Title II, dated December 20,
2006 highlights “. . . the need for the Postal Service to increase its efficiency and reduce
its costs, including infrastructure costs, to help maintain high quality, affordable postal
services. . . .”

This audit report responds to a request from the Postal Service senior vice president,
operations, to examine the feasibility of consolidating the Houston P&DC into the North
Houston P&DC.



2
 Testimony to the Congressional Committees: Mail Processing Network Initiatives Progressing and Guidance for
Consolidating Area Mail Processing Operations Being Followed, (GAO-10-731, dated June 2010).




                                                       4
Houston, TX Processing and                                                     NO-AR-11-004
 Distribution Center Mail Consolidation


The two facilities are 15 miles apart. The proposed consolidation would move all of the
Houston P&DC’s mail processing operations to the North Houston P&DC. There would
be a transfer of approximately 1.8 billion originating and destinating mailpieces to the
North Houston P&DC for processing. Additionally, the proposal includes moving the
Houston Destination Delivery Center (DDC) and the Houston District Office from leased
space to the North Houston P&DC.

                   Map: Houston P&DC (1) and North Houston P&DC (2)




OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether a business case exists to support the
consolidation of mail processing operations from the Houston P&DC to the North
Houston P&DC. We reviewed data from October 1, 2007, to September 30, 2009, to
analyze current and potential efficiencies for both plants as well as capacity at the North
Houston P&DC. Additionally, we reviewed service scores from FYs 2009 and 2010 and
estimated the costs and savings from this analysis. We conducted observations at both
sites during August and September 2010 and interviewed Postal Service management
and employees.




                                             5
      Houston, TX Processing and                                                            NO-AR-11-004
       Distribution Center Mail Consolidation


      We used computer processed data from the following systems:

              Enterprise Data Warehouse.
              Customer Satisfaction Measurement (CSM) System.
              Web Complement Information System.
              Activity Based Costing System.
              Web End of Run.

      We conducted this performance audit from July through December 2010 in accordance
      with generally accepted government auditing standards and included such tests of
      internal controls, as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our findings and conclusions based on our
      audit objective. We believe that the evidence obtained provides a reasonable basis for
      our findings and conclusions based on our audit objective. We discussed our
      observations and conclusions with management officials on October 27, 2010, and
      included their comments where appropriate.

      We assessed the reliability of computer-generated data by interviewing agency officials
      knowledgeable about the data. We determined that the data were sufficiently reliable for
      the purposes of this report.

      PRIOR AUDIT COVERAGE

                                      Report      Final Report
         Report Title                                                           Report Results
                                     Number           Date
Area Mail Processing               EN-AR-09-001     2/4/2009     The Postal Service improved communication
Communication                                                    and management has generally addressed
                                                                 prior audit recommendations. We
                                                                 recommended several methods of further
                                                                 increasing stakeholder notification, including
                                                                 exploring electronic methods. Management
                                                                 agreed with our recommendation to add
                                                                 employee input notifications, but disagreed
                                                                 with our recommendation to explore additional
                                                                 communication channels.
Canton Processing and              NO-AR-09-011    9/22/2009     It was a prudent decision to consolidate the
Distribution Facility Outgoing                                   Canton P&DF’s outgoing mail processing
Mail Processing Operation                                        operation into the Akron P&DC. We made no
Consolidation                                                    recommendations.
New Castle Processing and          NO-AR-10-002    2/1/2010      It was a prudent decision to consolidate the
Distribution Facility Outgoing                                   New Castle P&DF outgoing mail processing
Mail Processing Operation                                        operations into the Pittsburgh P&DC. The
Consolidation                                                    Postal Service could save more than $1.8
                                                                 million annually. We made no
                                                                 recommendations.




                                                      6
      Houston, TX Processing and                                                              NO-AR-11-004
       Distribution Center Mail Consolidation


                                      Report      Final Report
         Report Title                                                            Report Results
                                     Number           Date
Lakeland Processing and            EN-AR-10-004    2/12/2010     There was a valid business case for the
Distribution Center                                              consolidation. It will increase efficiency, reduce
Consolidation                                                    processing costs, and improve service. We
                                                                 made no recommendations.
Manasota Processing and            EN-AR-10-003    2/12/2010     We concluded there was a business case for
Distribution Center                                              consolidating mail processing operations from
Consolidation                                                    the Manasota P&DC into the Tampa P&DC.
                                                                 The consolidation should increase efficiency,
                                                                 reduce processing costs, and improve service.
                                                                 We recommended the vice president, Network
                                                                 Operations, ensure that P&DC consolidation
                                                                 begin immediately after AMP proposal
                                                                 approval and require headquarters' approval
                                                                 when implementation is delayed more than 3
                                                                 months. We also recommended the vice
                                                                 president enable the automatic feed into the
                                                                 Web Management Operation Data System for
                                                                 Express Mail® scanning operations.
                                                                 Management agreed with our
                                                                 recommendations.
Dallas Processing and              NO-AR-10-003    2/24/2010     A business case existed to support the
Distribution Center Outgoing                                     consolidation. There was capacity, the
Mail Consolidation                                               potential to improve customer service and
                                                                 efficiency, impact a limited number of
                                                                 employees, and the Postal Service could save
                                                                 $114 million over a 10-year period.
                                                                 Management agreed with the
                                                                 recommendations.
Consolidation of the Lima          NO-AR-10-007    7/2/2010      A business case existed to support
P&DF Mail Operations Into the                                    consolidating the Lima P&DF’s mail operations
Toledo P&DC                                                      into the Toledo P&DC. As a result of this
                                                                 consolidation, the Postal Service will save $1.8
                                                                 million during the first year and $2.3 million
                                                                 during subsequent years. Management agreed
                                                                 with the recommendations.
Charlottesville Processing and     NO-AR-10-008    8/3/2010      There was a valid business case for the
Distribution Facility                                            consolidation. There was capacity and the
Consolidation                                                    potential to improve customer service and
                                                                 efficiency. No employee will lose their job and
                                                                 the Postal Service could save $6.5 million
                                                                 annually. We made no recommendations.




                                                      7
     Houston, TX Processing and                                                             NO-AR-11-004
      Distribution Center Mail Consolidation


                                     Report      Final Report
        Report Title                                                            Report Results
                                    Number           Date
Wilkes-Barre, PA Processing       NO-AR-11-001    10/4/2010     There was a valid business case for
and Distribution Facility                                       consolidating mail processing operations. Both
Consolidation                                                   the Scranton P&DF and the Lehigh Valley
                                                                P&DC had the capacity to process Wilkes-
                                                                Barre P&DF volume. However, the Postal
                                                                Service overstated savings by more than
                                                                $929,000 because the summary page for AMP
                                                                projections was not protected from manual
                                                                changes. We made no recommendations
                                                                because the Postal Service took action during
                                                                the audit by implementing a new procedure to
                                                                password-protect this type of data in the future.




                                                     8
Houston, TX Processing and                                                                              NO-AR-11-004
 Distribution Center Mail Consolidation


                                 APPENDIX B: DETAILED ANALYSIS

Capacity

As of October 2010, mail processing capacity at the North Houston P&DC is not
sufficient to absorb the Houston P&DC’s mail volume. Specifically, using FY 2009 idle
time, the North Houston P&DC could only process, as a percentage of the Houston
P&DC’s automated mail volumes, the following:

        27 percent of the Automated Facer Canceller System (AFCS)3 volume.

        4.45 percent of the Advanced Flat Sorting Machine (AFSM)4 volume.

        20.44 percent of the Automated Package Processing System (APPS)5 volume.

        27.60 percent of the Delivery Bar Code Sorters (DBCS)6 volume.

        38.61 percent of the DBCS with Input/Output Subsystem (DIOSS)7 pieces fed at
         the Houston P&DC and Houston DDC.

Based on FY 2009 volumes, the Houston P&DC would transfer approximately 1.8 billion
first-handling pieces (FHP).8 This represents a 109 percent increase in volume for the
North Houston P&DC. However, FHP mail volume decreased by 10.36 percent from
FYs 2008 to 2009 at the Houston P&DC and by 1.74 percent at the North Houston
P&DC, indicating that mail volume resulting from the consolidation may be less than
anticipated especially if mail volume continues to decline.

The proposed expansion at the North Houston P&DC, additional staffing, new
equipment, and transfer of mail processing equipment should provide sufficient capacity
to process the combined mail volumes at the gaining facility. For example, it is proposed
that:

        The Postal Service add twelve AFCS machines9 to the North Houston P&DC.
         This new equipment will provide capacity to process approximately 352 million
3
  Equipment used in the first step of mail processing to face, cancel, and separate the optical character-readable mail
and the pre-barcoded mail from the non-readable mail.
4
  The AFSM is equipped with a bar code reader to process bar coded flat mail. A Flat Sequencing System (FSS) will
be deployed to the North Houston P&DC, supplementing the AFSM capacity.
5
  APPS is an automated parcel and bundle sorting system which includes automatic package singulation, parcel
address recognition, and online remote video coding.
6
  The DBCS sorts mail to a carrier's delivery sequence using the 2-digit delivery point sequence code.
7
  The DIOSS kits are enhancements to the Delivery Barcode Sorters that provide expanded processing capability.
These enhancements lift images from letters, allow more in-depth sortation, and reduce secondary and manual
handlings.
8
  Letter, flat or parcel mail that receives its initial distribution at Postal Service facilities.
9
  AFCS 200s have the capacity to process 15 percent more than the current AFCS. We assumed the 15 percent
increase in North Houston’s AFCS productivity and an increase of approximately 30 minutes of AFCS machine run
time.




                                                           9
Houston, TX Processing and                                                                      NO-AR-11-004
 Distribution Center Mail Consolidation


        letters. This is more than enough capacity to cancel the combined 342 million
        letters processed at both facilities.

       One APPS machine from the Houston P&DC will be added to existing APPS
        machines at the North Houston P&DC, providing sufficient capacity to run the
        combined mail volume after the consolidation. FY 2009 combined APPS volume
        processed on both APPS machines was approximately 67.8 million pieces.

       Four AFSM machines and one FSS machine will be added to the five AFSMs
        already at the North Houston P&DC. This new equipment capacity and existing
        AFSMs provide capacity of approximately 413.6 million flat mailpieces.10 This is
        more than enough capacity to process the expected 412.8 million flats that could
        result from the consolidation.

       The 37 DBCS machines at the North Houston P&DC will increase to 79 after the
        transfer of existing machines from the Houston P&DC and Houston DDC.
        Therefore, the North Houston P&DC will have sufficient equipment to process the
        approximately five billion letter pieces fed on the DBCS machines in FY 2009.

       The addition of six DIOSS kits from the Houston P&DC11 added to the existing
        five at the North Houston P&DC will provide more than enough capacity to
        process the 736.2 million letter pieces processed in FY 2009.

Additionally, the North Houston P&DC has more available space and docks.

       The North Houston P&DC has 687,562 square feet (SF) as compared to the
        Houston P&DC, which has 516,978 SF. The North Houston P&DC will be
        expanded to 1,127,562 SF, providing adequate floor space to support combined
        mail processing operations.

       The Houston P&DC has limited space to expand or add additional machines.
        See Illustrations 2 and 3.




10
   Report Number DA-AR-10-007, Flats Sequencing System: Program Status and Projected Cash Flow, states 9,958
pieces per hour throughput.
11
   In FY 2009 the Houston P&DC had eight DIOSS kits; however, by June 2010 this number had been reduced to six
due to the changes in mail volumes.




                                                      10
Houston, TX Processing and                                                NO-AR-11-004
 Distribution Center Mail Consolidation




                        Illustration 2: First floor at the Houston P&DC




                 Illustration 3: Houston P&DC Second Floor Congestion




                                              11
Houston, TX Processing and                                                     NO-AR-11-004
 Distribution Center Mail Consolidation



       The North Houston P&DC has 105 dock doors as compared to 78 dock doors at
        the Houston P&DC. Plans for the proposed expansion at the North Houston
        P&DC will add 54 new dock doors to the facility. Additional dock doors will allow
        for efficient loading, unloading, and dispatch of mail trucks by minimizing wait
        time in the dock areas.

       The Houston P&DC has only 90 feet from the dock to the fenced property line for
        truck drivers to navigate into and out of the dock doors. Tractor trailers normally
        require 120 feet as a turning radius. Because of these tight operating
        parameters, contract drivers with lengthy tractors are often forced to drop their
        trailers at the Houston P&DC for a Postal Vehicle Service driver to pick up and
        back into the dock area. The North Houston P&DC has sufficient room to allow
        for normal truck navigation in and out of its docks. See Illustrations 4 and 5.




              Illustration 4: Truck backing into dock at the Houston P&DC.




                                             12
Houston, TX Processing and                                                                               NO-AR-11-004
 Distribution Center Mail Consolidation




           Illustration 5: Truck backing into dock at the North Houston P&DC.

Customer Service

The consolidation should not impact customer service. We reviewed three measures of
customer service: the External First-Class measurement system (EXFC),12 the CSM,13
and the projected service standard upgrades and downgrades. During FYs 2009 and
2010, the North Houston P&DC consistently had higher EXFC overnight scores than the
Houston P&DC except for Q4, FY 2010. The lower overnight score in the Q4, FY2010
was the result of the North Houston P&DC experiencing two Zero Bundles in their EXFC
testing.14 If the consolidation occurs, a combined mail processing operation should allow
management to focus more specifically on problems with meeting national goals and
allow them to improve performance in this area. See Chart 1.




12
   The EXFC is “a system whereby a contractor performs independent service performance tests on certain types of
First-Class Mail (that is, letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides
national, area, performance cluster, and city estimates, which are compared with USPS service goals. The results are
released to the public quarterly by the consumer advocate.” Small Plant Best Practices Guidelines (Handbook PO-
420), November 1999, Appendix D, page 40.
13
   A survey of randomly selected residential postal customers, the results of which, along with unsolicited consumer
complaints, offer feedback on consumer services conducted by the Gallup Organization, and survey results are
analyzed by International Business Machines (IBM). According to the Postal Service’s Consumer Advocate, the CSM
was retired in favor of the new Customer Experience Measurement (CEM) program being launched in FY 2010.
14
   A “Zero Bundle” is a bundle in which all the overnight test mailpieces fail. This can occur when mailpieces in a
collection box are not picked up by the carrier.




                                                           13
Houston, TX Processing and                                               NO-AR-11-004
 Distribution Center Mail Consolidation


Chart 1: Houston P&DC vs. North Houston P&DC Overnight EXFC Service Scores
                       FYs 2009 and 2010, by Quarter




For 2-day and 3-day service standards, the two plants had comparable scores and were
generally at or above national goals. See Charts 2 and 3.

  Chart 2: Houston P&DC vs. North Houston P&DC 2-Day EXFC Service Scores
                       FYs 2009 and 2010, by Quarter




                                          14
Houston, TX Processing and                                                         NO-AR-11-004
 Distribution Center Mail Consolidation



  Chart 3: Houston P&DC vs. North Houston P&DC 3-Day EXFC Service Scores
                       FYs 2009 and 2010, by Quarter




CSM scores for the North Houston P&DC generally exceeded the Houston P&DC’s
scores. The Houston P&DC’s average CSM score for the two 3-digit ZIP Codes served
was 85.38 and the North Houston P&DC’s average score for the three 3-digit ZIP Codes
served was 88.58. See Chart 4.

                  Chart 4: Customer Satisfaction Measurement Scores
                   Houston P&DC vs. North Houston P&DC, FY 2009*




             *Based on the percent of customers rating their residential service
             as excellent, very good or good




                                                    15
Houston, TX Processing and                                                                             NO-AR-11-004
 Distribution Center Mail Consolidation



The overall impact on service standards15 for all mail classes will be positive. There are
42 downgrades affecting 5,928 First-Class mailpieces. The number of downgraded
mailpieces represents only approximately one-tenth of 1 percent (.12 percent) of
average daily volume of about 4.9 million mailpieces resulting in little service impact.
See Table 1.

                    Table 1: Upgrades/Downgrades in Service Standards
                    by Mail Class and Percentage of Mail Volume Affected

                                                                                 Mail              % of Mail
                                                                 Net           Volume               Volume
     Mail Class        Upgrades         Downgrades
                                                               Change         Negatively           Negatively
                                                                               Affected             Affected

 First-Class®                3                  21                -18            5,928                0.12%

 Priority Mail®              3                  0                  3                0                   0%

 Periodicals              1,488                 21              1,467             N/A16                 N/A

 Standard Mail            2,757                 0               2,757              N/A                  N/A

 Package
                            18                  0                 18                0                   0%
 Services

 All Classes              4,269                 42              4,227            5,928                0.12%



The North Houston P&DC is located within 5 miles of the Houston Intercontinental
Airport, while the Houston P&DC is 22 miles from the airport. Closer proximity to the
airport allows for more reliability in meeting airline dispatches and reduces the time
necessary to transport the mail to the airport, thereby increasing the processing
operational window. Longer operating windows and shorter transportation trips typically
result in improved service scores. Additionally, the North Houston P&DC is located in a

15
   Service standards are defined as "A stated goal for service achievement for each mail class." Service standards
represent the level of service the Postal Service strives to provide to customers and are considered one of the
primary operational goals against which service performance is measured. Service standards by mail class are as
follows: Priority Mail: 1-3 Days, First-Class Mail: 1-3 Days, Periodicals: 1-9 Days, Package Services, 2-8 Days, and
Standard Mail: 3-10 Days. An upgrade or downgrade means that service between two ZIP Codes is one or more
days faster or slower than it was before a change.
16
   Periodical and standard mail downgrades do not show any service standard impact on mail volume because this
volume is not captured in the Originating-Destinating Information System (ODIS). ODIS does not sample these
pieces and estimates from various systems have shown this volume to be less than 1% of total volume entered at
that facility.




                                                          16
Houston, TX Processing and                                                     NO-AR-11-004
 Distribution Center Mail Consolidation


suburban area, adjacent to major highways; while the Houston P&DC is in downtown
Houston, an area frequently subject to traffic congestion.

To maintain the identity of stamped mail inducted in the Houston ZIP Codes and
enhance community support of the consolidation, we recommend a combined postmark
showing both Houston and North Houston as in previous consolidations. The potential
revenue at risk is estimated at $835,048 (see Appendix C).

We identified additional customer service-related issues that would be impacted by a
consolidation. Operations at the Bulk Mail Entry Unit at the Houston P&DC will be
moved to the North Houston P&DC where customers will receive the same discounts as
if they were at the Houston facility, although some will have to travel farther to drop off
their mail. Management will transfer all retail window operations at the Houston P&DC
to other locations in the downtown Houston Area.

Employee Impact

Consolidation of the Houston P&DC’s mail into the North Houston P&DC will
understandably have an impact on employees, although no career employee should
lose their job, some may be reassigned.17 The proposed consolidation should result in a
net decrease of 394 full-time equivalent (FTE) craft positions and 15 Executive and
Administrative Schedule (EAS) positions.18 Specifically:

        There will be a reduction of 1,429 FTE craft positions and 95 EAS positions at
         Houston P&DC.

        The North Houston P&DC will gain 1,035 FTE craft positions and 80 EAS
         positions.

        The remaining 409 employees will have opportunities for other vacancies in the
         Houston District.19 The number of employees eligible for retirement could reduce
         the number of positions that would have to be accommodated in the Houston
         District.

Efficiency

Efficiency should improve as a result of the consolidation. The North Houston P&DC is
more efficient and processes its mail volume at a lower cost than its Houston P&DC
counterpart. For example, in FY 2009, the North Houston P&DC’s FHP productivity was
1,062 pieces per workhour as compared with the Houston P&DC’s productivity of 904
pieces per workhour. This could be due, in part, to mail being processed on two


17
   Based on labor/management agreements.
18
   The FTE decrease is from the Postal Service’s consolidation analysis.
19
   Some employees may be entitled to relocation benefits.




                                                         17
Houston, TX Processing and                                                  NO-AR-11-004
 Distribution Center Mail Consolidation


separate floors at the Houston P&DC, requiring the use of elevators to move the mail
between floors. See Illustrations 6 and 7.




Illustration 6: Houston P&DC elevators used to transfer mail between floors.




Illustration 7: Houston P&DC elevator full of mail moving to second level to
process.




                                          18
Houston, TX Processing and                                                                      NO-AR-11-004
 Distribution Center Mail Consolidation



When compared to similar sized facilities, both the Houston P&DC and the North
Houston P&DC achieved productivity levels above the median for their respective
groups.20 For example, the Houston P&DC’s FHP productivity of 904 was above the
Group 1 median of 841 pieces per workhour, while the North Houston P&DC’s FHP
productivity of 1,062 was above the Group 2 median of 958 pieces per workhour.
However, the North Houston P&DC has had higher FHP and TPH productivity than the
Houston P&DC for FYs 2007, 2008, and 2009.

Mail processing costs at the North Houston P&DC are also lower than the Houston
P&DC. The average cost to process 1,000 mailpieces at the Houston P&DC is $76.56,
whereas at the North Houston P&DC the average cost is $62.07. See Chart 6.

                              Chart 6: FY 2009 Cost per 1,000 FHP




Based on FY 2009 data, the Postal Service paid approximately $141.6 million to
process 1.8 billion FHPs at the Houston P&DC, compared to $105.1 million to process
1.7 billion FHPs at the North Houston P&DC. The transfer of mail volume to the North
Houston P&DC should further reduce processing costs per 1,000 mailpieces due to
more efficient use of machinery. This translates into approximately $26.8 million of
savings the Postal Service could achieve based solely on the difference in processing
costs between the two sites.


20
  The North Houston P&DC was at or above the median FHP productivity of Group 2 plants for both FYs 2008 and
2009. The Houston P&DC was above the median FHP productivity of Group 1 plants for both FYs 2008 and 2009.




                                                      19
Houston, TX Processing and                                                                           NO-AR-11-004
 Distribution Center Mail Consolidation


Cost Savings/Loss

Cost savings from the consolidation will primarily be the result of workhour reductions,
transportation adjustments in Highway Contract Route (HCR) and PVS schedules, and
lease terminations. Chart 7 shows our estimated annual cost savings of $35 million21
from the consolidation taking into account workhours, maintenance, transportation, and
equipment costs.
                         Chart 7: Cost Savings/Loss Breakdown


                                           Annual Savings/Loss
                               First Year                Second Year              Third and Subsequent
                              Savings/Loss               Savings/Loss                 Year Savings22

 Mail Processing
                                                $0                          $0                     $27,381,400
 Craft Workhours
 Non-Mail
 Processing Craft                                 0                          0                           214,806
 Workhours
 PCES/EAS 23                                      0                          0                         1,817,808

 Transportation                                   0                          0                         4,112,485
 Maintenance                                      0                          0                         1,383,470
 One-Time
                                   (31,178,332)                (31,178,332)                                          0
 Costs24
 Annual
                                 $(31,178,332)                $(31,178,332)                        $34,909.969
 Savings/Loss


One-Time Costs

The one-time cost of the consolidation is estimated at approximately $62.4 million. This
includes approximately $50 million to build-out about 440,000 SF of additional interior
space, $4.1 million for other building modifications,25 and $3.7 million for additional mail
processing equipment.26


21
   The proposed expansion is expected to take 2 years, so the Postal Service will not realize annual savings until
after the expansion is completed.
22
   Third and subsequent year savings are based on net present value and, as such, will change slightly each year.
23
   Postal career executive service/ Executive Administrative Schedule.
24
   One-time costs include expansion and modification of the North Houston P&DC, purchase of new equipment,
relocation of furniture and equipment, adding P.O. boxes, and depostalization of the Houston DDC.
25
   Building modifications include (1) Building out the River Oaks Station to accommodate additional P.O. boxes and
parking for relocated customers from the Houston Post Office; (2) Depostalization of the Houston DDC; (3)




                                                         20
Houston, TX Processing and                                                                           NO-AR-11-004
 Distribution Center Mail Consolidation



We compared costs associated with the build-out of the North Houston P&DC ($114 per
net square foot) to costs associated with building the Oklahoma City P&DC which was
occupied in 2008 ($106 per net square foot), and the building of the Michigan Metroplex
P&DC which was also occupied in 2008 ($138 per net square foot). Based on these
comparisons, the estimated expansion cost are reasonable.




Relocation/Build out of the Image Processing Subsystem (IPSS) room; (4) Expansion of the Battery Room and
Retrofit; (5) Expansion of the Registry Room; and (6) Relocation of the Computerized Forwarding Service (CFS) unit.
26
   Additional equipment includes replacing four small low-cost tray sorters with two high-speed tray sorters (HSTS);
and adding one tray depalletizer required to feed into the HSTS, six forklifts, and 12 tow motors.




                                                         21
Houston, TX Processing and                                                                              NO-AR-11-004
 Distribution Center Mail Consolidation



                APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

                                               Monetary Impact

                 Finding                      Impact Category                               Amount
             Mail Processing           Funds Put to Better Use27                          $189,744,682
               Efficiency

         We calculated Funds Put to Better Use using the workhour savings and other
         cost savings multiplied by the escalated labor rate of 1.7 percent, energy related
         cost escalation rate of 3.10 percent, and a discount rate of 3.875 percent over a
         10-year period. We reduced the savings figure by the one-time costs related to
         the consolidation. As a result of the consolidation and after the expansion
         completion, the Postal Service could save approximately $35 million annually or
         $189,744,682 over 10 years.

                                                 Other Impacts

                Finding             Impact Category                                          Amount
            Customer Service Revenue at Risk28                                               $835,04829
            – Postmark
            Preservation




27
   Funds Put to Better Use Funds that could be used more efficiently by implementing recommended actions
28
   Revenue at Risk is revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative
solutions for services currently provided by the Postal Service).
29
   189,783,565 FCM letters were cancelled at the Houston P&DC during FY 2009. One percent of the revenue from
this volume is approximately $835,048. (189,783,565 x $0.44 x 1 percent).




                                                          22
Houston, TX Processing and                                NO-AR-11-004
 Distribution Center Mail Consolidation


                      APPENDIX D: MANAGEMENT’S COMMENTS




                                          23
Houston, TX Processing and                     NO-AR-11-004
 Distribution Center Mail Consolidation




                                          24
